   October 6, 2005




Financial Management
Report on Civilian Payroll and
Withholding Data for FY 2005
(D-2006-002)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CSRS                  Civil Service Retirement System
DCPS                  Defense Civilian Pay System
DFAS                  Defense Finance and Accounting Service
DOE                   Department of Energy
FEGLI                 Federal Employees Group Life Insurance
FERS                  Federal Employees Retirement System
OIG                   Office of Inspector General
ODIG-AUD              Office of the Deputy Inspector General for Auditing
OPF                   Official Personnel File
OPM                   Office of Personnel Management
RITS                  Retirement Insurance Transfer System
TSP                   Thrift Savings Plan
                             INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON. VIRGINIA 22202-4704




hlEhlORANDUh1 FOR DEPARTMENT OF THE ARMY
                  DEPARTMENT OF THE NAVY
                  DEPARTMENT OF THE ALR FORCE
                  DIRECTOR, DEFENSE FINANCE AND ACCOLINTING
                    SERVICE
                  INSPECTOR GENERAL, DEPARTMENT OF ENERGY
                  OFFICE OF PERSONNEL MANAGEMENT. CHIEF,
                    INTERNAL AUDITS DIVISION


SUBJECT: Rcport on Civilian Payroll and Wilhholding Data for FY 2005
         (Report No. D-2006-002)


        We are providing this report for review and commcnt. The Department of the
Army, Defensc Commissary Agency: and Departnlcnt of Energy did not respond to the
draft rcport. However, ive considered cornmcnts from the Navy, Air Forcc, Dcfense
Finance and Accountins Service. Defense Logistics Agency, and Defense Threat
Reduction Ascncy \vhen preparing the final rcport.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Wc requcst that the Department of the Army. Defense Commissary Agcncy, and the
Department of Energy provide cornmcnts on the recommendation by November 7; 2005.

           If possible, pleasc scnd management comments in clcctronic rormat (Adobe
Acrobat tile onIy) to Aud-dfs@dodig.osd.n~il.Copics of the management cornments
must contain the actual signature of the authorizins official. We cannot accept thc
1 Sixncd s m b o l in olace of the actual si~matore.If vou arranee
                                                                " to send classified
c o n k e n t s electr~nlc'all~,
                              they must be sent over the SECRET Intcrnct ProtocoI Router
Netuork (SIPRNET).

       Wc appreciate the courtesies extended to the staff. Questions should be directed
to Douslas P. Neville at (703) 428-1 061 (DSN 328-1061) or Mr. Thomas 1. LYinter at
(703) 428-1082 (DSN 328-1082). For the report distribution, see Appendix C. The team
members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                      P&J. Granetto, CPA
                               Assistant Inspector General.
                               Defense Financial A u d ~ t i n s
                                          Service
                Department of Defense Office of Inspector General
Report No. D-2006-002                                                      October 6, 2005
   (Project No. D2005-D000FP-0084)

             Civilian Payroll and Withholding Data for FY 2005

                                 Executive Summary

Who Should Read This Report and Why? This report is intended for use of the Office
of Personnel Management (OPM) Inspector General and its Chief Financial Officer and
should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes. The report
discusses the results of agreed-upon audit procedures developed for the OPM.

Background. Office of Management and Budget Bulletin No. 01-02, “Audit
Requirements for Federal Financial Statements,” October 16, 2000, requires all Federal
agencies to review their civilian employee retirement, health benefits, and life insurance
payroll withholdings. The OPM Inspector General and its Chief Financial Officer
developed specific agreed-upon procedures to review civilian employees’ withholdings
and are, therefore, responsible for the adequacy of the agreed-upon procedures. We
applied the agreed-upon procedures in accordance with the standards established by the
American Institute of Certified Public Accountants. The audit of FY 2005 included the
Department of Energy (DOE), which transitioned its payroll functions to the Defense
Finance and Accounting Service (DFAS). We did not audit the DOE personnel files.
Auditors for the DOE Inspector General audited those files and provided their working
papers to us. We entered into a Memorandum of Understanding with the DOE to
establish the scope of work to be performed by each agency.

Results. The payroll withholding amounts and total payroll amounts that the DFAS
reported to OPM did not exactly match the supporting detail that DFAS provided for our
analysis. However, the differences are less than the thresholds prescribed in the agreed-
upon procedures. This is a repeat issue reported in prior Inspector General audits. For
details of the analysis, see the Independent Auditor’s Report and Attachment starting on
page 5.

Withholding Data Discrepancies. We selected a sample of 225 employees and
compared their payroll withholdings to authorizations in their official personnel files.
The sample of 225 included 180 DoD employees and 45 DOE employees. The
comparison revealed that 14 of the 225 employee files sampled had a total of
25 discrepancies.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, and on the employee headcount of the DoD and DOE. Therefore,
we are not expressing an opinion. We performed additional procedures based on
generally accepted government auditing standards that we considered necessary in the
circumstances.
We compared Forms 592, used for Payroll Certification and Summary, with the total
payroll amounts in the payroll files. We found no material differences between the
DFAS payroll footings and the corresponding amounts reported on Forms 592. This
accuracy is a significant improvement from FYs 2003 and 2004. We compared Forms
2812, used for reporting the withholding and contribution for health benefits, life
insurance, and retirement, with data in the Defense Civilian Pay System. The differences
for retirement, life insurance, and health insurance withholdings and contributions were
less than the reporting threshold criteria of 1 percent established in the agreed-upon
procedures for these categories.

The DFAS and supporting DoD and DOE organizations should improve management
controls over the accuracy of the payroll amounts withheld and remitted to the OPM.
The withholding amounts we calculated while performing the agreed-upon procedures
differed from the withholding amounts presented in the DFAS reports.

Management Comments and Audit Response. The Navy, Air Force, Defense Finance
and Accounting Service, Defense Logistics Agency, and Defense Threat Reduction
Agency concurred with the recommendation and provided management comments that
are responsive. The Department of the Army and the Defense Commissary Agency did
not provide comments on the draft of this report; therefore, we request that these
organizations provide comments on this final report by November 7, 2005. The
Department of Energy declined to comment on the draft of this report, which we issued
on August 8, 2005. The management comments are discussed in the Overview section of
this report. We included the full text of the Navy, Air Force, Defense Finance and
Accounting Service, Defense Logistics Agency, and Defense Threat Reduction Agency
comments in the Management Comments section of this report.




                                           ii
Table of Contents

Executive Summary                                                   i

Independent Auditor’s Report
     Overview                                                      1
     Agreed-Upon Procedures and Associated Findings (Attachment)   6

Appendixes
     A. Scope and Methodology                                      16
          Management Control Program Review                        17
     B. Prior Coverage                                             18
     C. Report Distribution                                        19

Management Comments
     Department of the Navy                                        21
     Department of the Air Force                                   22
     Defense Finance and Accounting Service                        23
     Defense Logistics Agency                                      24
     Defense Threat Reduction Agency                               25
                                   Independent Auditor’s Report

                                                Overview


           We performed the procedures described in the attachment, agreed to by the OPM
           Inspector General and Chief Financial Officer. We performed the procedures
           solely to assist with respect to employee withholdings and employer contributions
           reported on the Report of Withholdings and Contributions for health benefits, life
           insurance, and retirement 1 for the payroll periods ended October 16, 2004;
           January 22, 2005; February 19, 2005; and March 5, 2005; and Semiannual
           Headcount Reports as of February 19, 2005, and March 5, 2005. We performed
           this engagement to apply agreed-upon procedures in accordance with the
           standards established by the American Institute of Certified Public Accounts. The
           sufficiency of the procedures is solely the responsibility of OPM’s Inspector
           General and its Chief Financial Officer. Consequently, we make no
           representation regarding the attachment either for the purpose for which this
           report has been requested or for any other purpose.

           Comparison of Amounts Withheld and Remittance to OPM. The DFAS and
           supporting DoD organizations have improved management controls over the
           accuracy of the payroll amounts withheld and remitted to OPM. We performed
           the agreed-upon procedures to compare the amounts reported to OPM with the
           amounts withheld from employees’ pay. The amounts differed slightly.
           However, the differences were under the threshold criteria prescribed in the
           agreed-upon procedures.

           Payroll File Totals. The payroll withholding amounts DFAS reported to OPM
           exceeded the totals of the DFAS database (the amounts actually withheld) by
           $97,351 for an overall error rate of 0.03 percent. This is an improvement from
           FY 2004, when the payroll amounts DFAS reported to OPM exceeded the
           footings of the DFAS database by $344,330 with an overall error rate of
           .06 percent. The dollar differences found this year, which range as high as
           0.18 percent, are immaterial with respect to the DoD financial statements. The
           difference still represents a material management control weakness, however,
           because of the sensitivity of payroll. The differences for retirement, health
           benefits, and life insurance were less than the reporting threshold criteria of
           1 percent established in the agreed-upon procedures.

           Payroll Certification and Summary. The total of the gross payroll amounts in
           the four DoD payroll files sampled 2 and the DOE file was $5.94 billion for the
           four pay periods we reviewed, which represents 91 percent of the total. This
           differed by $6,326 from the total of amounts on Form 592, “Payroll for Personnel
           Services Payroll Certification and Summary,” originally provided by DFAS.
           Comparisons showed significant improvements from last year and indicate that
           DFAS has implemented recommendations made in our FY 2004 audit report.


1
    Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS).
2
    The agreed-upon procedures require sampling of payroll files of 30,000 or more employees.



                                                     1
  Comparison of Payroll System Data to Official Personnel Files. We compared
  a sample of 225 employees' pay and withholdings from five payroll data files to
  documentary support recorded in Official Personnel Files (OPF) 3 . Of the 225
  files, 180 were DoD employees and 45 were DOE employees. DOE auditors
  reviewed the 45 files and we relied on their work. Of the 225 OPFs reviewed, 14
  had a total of 25 discrepancies. Table 1 shows the breakdown by entity of OPFs
  with errors.

                       Table 1. OPFs with Errors by Entity
           Entity               Number of OPFs       Number of Discrepancies

Defense Agencies                         5
Navy                                     3
DOE                                      3
Ammy                                     2
Air Force                                -1
Total                                    14


  Of the 25 discrepancies:

         Five were in gross pay,

         Ninc were in life insurance,

         Five were in FERS retirement,

         Five were in Thrift Savings Plan (TSP), and

         One was in CSRS retirement

  Personnel Documents from Databases. During our review of the 225 employee
  sample files, we identified 33 OPFs with what appeared to be discrepancies. We
  provided the Army, Navy, Air Force, Defense agencies, and DOE with thc names,
  social security numbers, and the nature of the discrepancies for each of the
  33 files. Thc A m y , Navy, Air Forcc, Defense agencies, and DOE subsequently
  provided us with documentation that explained differences between data in 26 of
  the OPFs and data in the Defense Civilian Pay System (DCPS). We accepted
  pcrsonllcl ~iocumcntsgcncr~tcdirom pcrson~iclfile datahascs that c o r n p l ~ ~ ~ l ~
  espl~incddiiicrcnccs het\v~,cndata in 1 9 of the 01'1:s dntl C ~ JIn~ DC'I'S
                                                                        J      .As a
  result, we reclassified 19 OPFs with explained inconsistencies to "samples
  corrected at a later date."
Of the 19 we reclassified as correct:

               •   one was from the Air Force,

               •   one was from the Army,

               •   one was from the Navy,

               •   five were from Defense agencies, and

               •   eleven were from DOE.

       The Army, Navy, Defense agencies, and DOE were unable to clarify 14 out of 33
       OPFs with potential discrepancies despite additional documentation. We
       included the 14 OPFs with discrepancies remaining in the total of 25 differences
       discussed in the paragraph “Comparison of Payroll System Data to Official
       Personnel Files” on page 2.

       Causes of Discrepancies. Five discrepancies between SF-50, “Notification of
       Personnel Action,” data in the OPF and gross pay data in the pay system resulted
       in 14 of the 25 items listed in Table 1. Amounts for retirement, life insurance,
       and Thrift Savings Plan withholdings are computed based on percentages of gross
       pay. Therefore, a discrepancy involving gross pay can cause discrepancies in
       retirement, life insurance, and TSP withholdings. Missing life insurance elections
       caused another three discrepancies. An inconsistency between TSP withholding
       in the pay system and a missing TSP election form accounted for another single
       discrepancy. It should be noted that gross pay discrepancies also can create
       additional discrepancies, accounting for multiple items in a single OPF.
       Miscalculations in withholding amounts caused the remaining eight
       discrepancies.

       Calculations Required. The agreed-upon procedures require us to compare the
       number of employees (headcount) in the payroll data files with the headcount in
       the Supplemental Semiannual Headcount Report. Our headcounts of the
       employees, using payroll data files, differed from the Supplemental Semiannual
       Headcount Reports by less than 1 percent, well within the 2-percent reporting
       threshold allowed for headcount comparison in the agreed-upon procedures.

       Life Insurance. Our recalculation of basic life insurance from the payroll data
       files supported the amounts reported to OPM for all DoD payroll offices with
       more than 30,000 employees and for DOE. The overall calculated amount of
       $18.94 million differed by $0.21 million (1.11 percent) from the $19.15 million
       DFAS reported to OPM. The difference between the amounts we calculated and
       the amounts DFAS reported to OPM did not exceed the 5-percent reporting
       threshold for this recalculation.

       Health Insurance. Our recalculations of health insurance withholdings from
       payroll data files supported the amounts DFAS reported to OPM. The amounts
       we recalculated from the payroll data files varied from the amounts DFAS
       reported to OPM by percentages between .10 and .96 percent in total, including
       employee withholding and agency contributions for each payroll file. This was


                                            3
    much lower than the prescribed reporting threshold of 5 percent for health
    insurance variances.

    Comparison of Amounts Transferred. We compared DFAS records with OPM
    documentation for the total dollar amounts transferred for the payoll periods
    sampled. We found that all the amounts reported by the DCPS equaled the
    amounts reported by OPM Retirement and Insurance Transfer System (RITS).

    We performed the agreed-upon procedures specifically pertaining to payoll. We
    were not engaged to and did not perform an audit with the objective of expressing
    an opinion on the withholdings and contributions for health benefits, life
    insurance, retirement, and on the employee headcounts of DoD and DOE.
    Therefore, we do not express an opinion. However, we performed additional
    procedures based on generally accepted government auditing standards that we
    determined necessary to evaluate the integrity of the data.

    This report is intended solely for use by OPM's Inspector General and its Chief
    Financial Officer. This report is prepared in the format directed by Office of
    Management and Budget Bulletin No. 01-02, October 16, 2000, to address the
    results of the agreed-upon procedures. Accordingly, this report should not be used
    by those who have not agreed to the procedures and have not taken responsibility
    for the sufficiency of the procedures for their purposes. In FY 2002, OMB
    guidance added additional requirements that we obtain management comments on
    this report.

    In support of OPM's plan to consolidate Federal payroll providers, DFAS
    administered DOE payoll functions in FY 2005. Therefore, we were the
    principal auditors responsible for auditing DOE civilian payoll information.
    DOE auditors performed the review of the 45 DOE Official Personnel Files. We
    relied on the work of DOE auditors for our reporting purposes.


Management Comments on the Finding and Audit Response
    klanagement Comments. The Air Force commented that we inappropriately
    included the Air Force in the list of organizations, on page 3 of the draft report,
    for which we identified discrepancies that were not resolved after the initial
    review.

    Audit Response. We agree that the Air Force comment is appropriate. Wc
    deleted the Air Force from the listing of organizations that had discrepancies that
    were not subsequently resolved.
Recommendations, Management Comments and Audit
  Response
    We recommend that the Army, Air Force, Navy, Defense Logistics Agency,
    Defense Commissary Agency, Defense Threat Reduction Agency, and
    Department of Energy:

           1.          Continue to implement and improve DoD and DOE
                       personnel office payroll withholding procedures to ensure
                       accuracy and timeliness of payroll withholding
                       authorizations.

           2.          Correct the errors in personnel files that we have identified
                       and provided for correction.

    Navy comments. The Navy concurred with the recommendation. The Navy also
    recommended that we identify discrepancies in future audits that are attributable
    to DFAS. Specifically, Navy management mentioned one of the four
    discrepancies that we identified to the Navy as being attributable to DFAS.

    Audit Response. We agree with the Navy’s recommendation to identify
    discrepancies that are attributable to DFAS, and that one of the four Navy
    discrepancies is attributable to DFAS. This discrepancy is included in the
    six discrepancies caused by miscalculations of withholding for basic FEGLI
    coverage on page 9 of the report, in the discussion of agreed-upon procedure
    step 2.i. We will continue to identify discrepancies in audit sample items that are
    attributable to DFAS in future audits.

    Air Force Comments. The Air Force concurred with the recommendation.
    Because the Air Force had no identified audit sample item discrepancies, no
    further action is required.

    Defense Finance and Accounting Service Comments. The Defense Finance
    and Accounting Service concurred with the report. Because we did not address
    any recommendations to DFAS, no further action is required.

    Defense Logistics Agency Comments. The Defense Logistics Agency
    concurred with the recommendations and completed a responsive corrective
    action in June 2005.

    Defense Threat Reduction Agency Comments. The Defense Threat Reduction
    Agency concurred with the recommendation and initiated a responsive corrective
    action to be completed in September 2005.




                                         5
 Agreed-Upon Procedures and Associated Findings
                  (Attachment)
This attachment contains the OPM agreed-upon procedures, the auditor actions,
and the results of accomplishing those procedures.

Procedure. Obtain the Agency Payroll Office’s March Semiannual Headcount
Report submitted to OPM and a summary of Retirement Insurance Transfer
System (RITS) submissions for the current fiscal year. For retirement, health
benefits, and life insurance, select any three RITS submissions for the current
fiscal year, one of which coincides with the March Semiannual Headcount
Report. Obtain Payroll information for the periods covered by the RITS
submissions selected.

1. Compare RITS submissions data with payroll information by performing the
following procedures:

Procedure 1a. Recalculate the mathematical accuracy of the payroll information.
For cross-servicing agencies, if internal controls are the same for all agencies
serviced, it is only necessary to perform this procedure for one agency.

Auditor Action for DoD. DFAS extracted all seven DoD payroll data files from
the payroll history database and sent them to us by compact disc from the
Pensacola, Florida, operating location. We totaled the 28 payroll data files
(seven payroll files for four pay periods) with about $6.4 billion in total pay and
about 687,000 employees in each payroll period. We also totaled the Civil
Service Retirement System (CSRS), Federal Employees Retirement System
(FERS), health insurance, and life insurance withholdings. According to DFAS,
the total withholdings for DoD were approximately $55.2 million for Federal
Employees’ Group Life Insurance (FEGLI), $175.9 million for health insurance,
$130.3 million for CSRS, and $30.5 million for FERS.

Auditor action for DOE. DFAS extracted the DOE payroll data file from the
payroll history database and sent it to us by compact disc from the Pensacola,
Florida, operating location. We totaled four payroll data files (one payroll file for
four pay periods) with about $154.6 million in total pay and about 10,800
employees in each payroll period. We totaled the CSRS and FERS withholdings,
health insurance withholdings, and life insurance withholdings. According to
DFAS, the total withholdings for DOE were approximately $1.3 million for
FEGLI, $3.5 million for health insurance, $3.7 million for CSRS, and
$0.7 million for FERS. The total gross payroll for DOE was $154.6 million.

Procedure 1b. Recalculate the mathematical accuracy of each RITS submission
for the payroll information selected in step 1.a.

Auditor Action for DoD and DOE. We recalculated the mathematical accuracy
of each RITS submission for the payroll information for the pay periods ended
October 16, 2004; January 22, 2005; February 19, 2005; and March 5, 2005.
OPM provided copies of the RITS submission for the corresponding periods.



                                      6
Procedure 1.c. Compare the employee withholding information shown on the
payroll information obtained in step 1.a. for retirement, health benefits, and life
insurance (as adjusted for reconciling items) to related amounts shown on the
RITS submission for the corresponding period.

Auditor’s Actions for DoD and DOE. We compared the employee withholding
totals to the related amounts shown on the RITS submission for retirement, health
benefits, and life insurance, as evidenced by a Form 2812 that OPM produced
from the RITS database. The payroll data file totals for CSRS, FERS, health
benefits, and life insurance substantially equaled the amounts on the OPM
Form 2812, with the greatest single discrepancy being 0.18 percent.

Procedure 2.a. Randomly select a total of 25 individuals who were on the
payroll system for all three of the RITS submissions selected and meet all the
following criteria:

   •   covered by the CSRS or the FERS;

   •   enrolled in the Federal Employees Health Benefits Program;

   •   covered by Basic Life Insurance;

   •   covered by at least one Federal Employees Group Life Insurance (FEGLI)
       optional coverage (Option A, B, or C).

Auditor Action for DoD and DOE. We randomly selected 25 individuals from
each of the four payroll data files in DoD with more than 30,000 employees, and
the DOE payroll data file, who were enrolled in Federal retirement, health
benefits, and life insurance programs.

Procedure 2.b. Obtain the following documents, either in electronic or hard copy
format, from the OPF for each individual selected in step 2.a. Hard copies can be
originals or certified copies.

   •   All Notifications of Personnel Actions (SF-50) covering the pay periods in
       the RITS submissions chosen;

   •   the Health Benefit Registration Form (SF-2809) covering the pay periods
       in the RITS submissions chosen (note: a new SF-2809 is needed only if an
       employee is changing health benefit plans; therefore, the form could be
       many years old);

   •   the Life Insurance Election Form (SF 2817) covering the pay periods in
       the RITS submissions chosen (Note: a new SF-2817 is needed only if an
       employee is changing life insurance coverage; therefore, the form could be
       many years old).

Auditor Action for DoD. We obtained Notifications of Personnel Actions
(SF-50), Health Benefit Registration Forms (SF-2809), and Life Insurance
Election Forms (SF 2817) covering the pay periods in the RITS submission
chosen.


                                      7
Auditor Action for DOE. We verified that the DOE auditors obtained
Notifications of Personnel Actions (SF-50), Health Benefit Registration Forms
(SF-2809), and Life Insurance Election Forms (SF-2817) covering the pay periods
in the RITS submission chosen.

Procedure 2.c. Via the agency personnel office, request a report from Employee
Express for any health benefit transactions in that system for the individuals
selected in step 2.a. Compare the date of transaction with the date on the certified
copy of the SF-2809 requested in step 2.b. Confirm that the health benefit
information to be used in step 2.g. covers the pay periods in the RITS submissions
chosen.

Auditor Action for DoD and DOE. We did not find any differences between
OPF documentation and DCPS. Therefore, we did not have to request copies of
any automated health benefits elections (SF-2809) from the agency personnel
office.

Procedure 2.d. Compare the base salary used for payroll purposes, and on which
withholdings and contributions generally are based, with the base salary reflected
on the employee’s SF-50. Report any differences.

Auditor Action for DoD. We compared the base salary used for payroll
purposes with the base salary reflected on the employees’ SF-50s. Out of the 180
files we sampled, five employees’ SF-50s did not support the base salaries used
for payroll purposes. The five errors totaled $462.35.

Auditor Action for DOE. The DOE auditors compared the base salary used for
payroll purposes with the base salary reflected on the employees’ SF-50s. All
45 files sampled had SF-50s that supported the base salaries used for payroll
purposes.

Procedure 2.e. For Retirement, compare the plan code on the employee’s SF-50
to the plan codes used in the payroll system. Report any differences.

Auditor Action for DoD and DOE. We compared the plan codes on the
employees’ SF-50s to the plan codes used in the payroll system. The DOE
auditors performed the same procedures for the DOE employees’ SF-50s. We did
not note any differences between the retirement plan codes on the employees’
SF-50s and the retirement plan codes used in the payroll system.

Procedure 2.f. Calculate the retirement amount to be withheld and contributed
for the plan code from the employees’ SF-50s, based upon the official
withholding and contribution rates required by law. Compare the actual amounts
withheld and contributed. Report any differences.

Auditor Action for DoD. We calculated the retirement amount to be withheld
and contributed for the plan codes from the employees’ SF-50s, based on the
official withholding and contribution rates required. We compared the retirement
amounts we calculated to actual amounts withheld and contributed for CSRS and
FERS participants. We noted differences only for the five employees whose
SF-50s did not support the base salaries. Differences for the five totaled $68.03.


                                     8
Auditor Action for DOE. DOE auditors calculated the retirement amount to be
withheld and contributed for the plan codes from the employees’ SF-50s, based
on the official withholding and contribution rates required. There were no
differences to note for the CSRS retirement amounts withheld. A DFAS rounding
error caused the only FERS retirement discrepancy. DFAS rounded down, not up
as they should have.

Procedure 2.g. For health benefits, compare the employee withholdings and
agency contributions with the official subscription rates issued by OPM for the
plan and option elected by the employees, as documented by Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs or Employee Express.
Report any differences.

Auditor Action for DoD and DOE. We obtained the official subscription rates
for health benefits issued by OPM for all plans and options available to Federal
employees. We compared the employee withholdings and agency contributions
with the official subscription rates issued by OPM for the plans and options
elected by the employees, as documented by Health Benefits Registration Forms
(SF-2809) in the employees’ OPFs. The DOE auditors performed the same
procedure for the DOE sample employees. We did not note any health
withholding differences.

Procedure 2.h. For life insurance, confirm that Basic Life Insurance was elected
by the employee, as documented by a Life Insurance Election Form (SF-2817), in
his/her OPF. Report any differences.

Auditor Action for DoD and DOE. We compared Life Insurance Election
Forms (SF-2817) with withholding data in DCPS. The DOE auditors performed
the same procedure for the DOE sample employees. We concluded that the OPFs
had proper documentation to support the elections.

Procedure 2.i. Calculate the withholding and contribution amounts for basic life
insurance using the following:

   •   For employee withholdings: Round the employee’s annual base salary to
       the nearest thousand dollars and add $2,000. Divide this total by 1,000
       and multiply by $0.15 (for Agency Payroll Offices with biweekly pay
       periods) or $0.3358 (for Agency Payroll Offices with monthly pay
       periods).

   •   For agency contributions: Divide the employee withholdings calculated
       above by two.

Auditor Action for DoD. We calculated the withholding and contribution
amounts for basic life insurance by rounding the employee’s annual base salary to
the nearest thousand dollars and adding $2,000, then dividing the result by 1,000
and multiplying by $0.15. We identified six discrepancies, all caused by
calculation errors, for DoD employees. The total dollar value of the discrepancies
was $2.40.




                                    9
Auditor Action for DOE. DOE auditors performed the same procedure and
found one discrepancy.

Procedure 2.j. Also, for life insurance, compare optional coverage elected as
documented by an SF-2817 in the employee’s OPF with optional coverage
documented in the payroll system. Report any differences.

Auditor Action for DoD. We obtained SF-2817 documents directly from
employees’ OPFs and electronic personnel data files. We obtained life insurance
optional coverage data from DCPS. We compared optional life insurance
coverage elected as documented on the SF-2817s with optional life insurance
coverage as recorded in the DCPS. We identified five differences for DoD
employees, with a total dollar value of $93.13.

Auditor Action for DOE. The DOE auditors identified one instance where DOE
records showed an employee’s withholdings as Option A, Option B (5 multiples),
and Option C (1 multiple); but the employee’s OPF did support an election of
Option B (5 multiples), and Option C (although for 5 multiples), but not
Option A. DOE officials initiated corrective action during the audit.

Procedure 2.k. Calculate the withholding amounts for optional life insurance
using the following:

   •   For Option A: Determine the employee’s age group using the age groups
       provided for Option A in the FEGLI Program Booklet. The withholding
       amount is the rate listed in the FEGLI Program Booklet for that age group.
       Compare to amount withheld. Report any differences.

   •   For Option B: Inspect the SF-2817 to determine the number of multiples
       chosen for Option B. Determine the employee’s age group using the age
       groups provided for Option B in the FEGLI Program Booklet. Round the
       employee’s annual rate of basic pay up to the next 1,000, divide by 1,000,
       and multiply by the rate for the age group. Multiply this amount by the
       number of multiples chosen. Compare the amount withheld. Report any
       differences.

   •   For Option C: Inspect the SF-2817 to determine the number of multiples
       chosen for Option C. Determine the employee’s age group using the age
       groups provided for Option C in the FEGLI Program Booklet. Multiply
       the rate for the age group by the number of multiples chosen. Compare to
       the amount withheld. Report any differences.

Auditor Action for DoD. We calculated the amounts for optional life insurance.
We identified five DoD optional life insurance errors. The errors resulted from
systematic gross pay errors and differences between the employees’ elections and
data in DCPS. The dollar value of these errors totaled $93.13.

Auditor Action for DOE. The DOE auditors performed the same procedure and
identified one error caused by a miscalculation of the hours worked during the
pay period. A difference between optional coverage shown in DCPS and



                                   10
coverage elected by the employee caused another error. The dollar value of the
error totaled $2.44.

Procedure 3. Randomly select a total of 10 employees who have no health
benefit withholdings from the payroll information corresponding to the RITS
submissions selected for testing.

Request SF-2809s covering the pay periods in the RITS submissions chosen,
whether in electronic or hard copy format, from the selected employees’ OPFs.
Hard copies can be originals or certified copies. Via the agency personnel office,
request a report from Employee Express for any health benefits transactions in
that system for individuals selected. Inspect the documentation to determine that
health benefit coverage was not elected. This can be determined in the following
ways:

       •   Absence of an SF-2809 in the OPF and no election of coverage made
           through Employee Express.

       •   An SF-2809 in the OPF with Section E checked (indicating
           cancellation of coverage) and no later election of coverage through
           Employee Express.

       •   Cancellation of coverage through Employee Express and no later
           election of coverage with an SF-2809. Report any exceptions.

Auditor Action for DoD. We randomly selected 10 employees from the payroll
data files who had no health benefits withholdings according to the payroll
information corresponding to the RITS submissions selected for testing. We
reviewed SF-2809s in the OPFs and electronic personnel databases. The DoD
does not participate in the Employee Express; however, DoD does use the
Electronic Benefits Information System, which we inspected for documentation to
determine whether the employee elected health benefit coverage. We found no
evidence of election of coverage for employees who had no health benefit
withholdings.

Auditor Action for DOE. We randomly selected 10 employees per payroll data
file who had no health benefits withholdings from the payroll information
corresponding to the RITS submissions selected for testing. DOE auditors
reviewed OPFs and electronic personnel databases for SF-2809s. The DOE does
not participate in the Employee Express; however, the DOE uses an internal
electronic database, which we inspected to determine whether the employee
elected health benefit coverage. We found no indication of election of coverage
for employees who had no health benefit withholdings.

Procedure 4. Randomly select a total of 10 employees who have no life
insurance withholding from the payroll information corresponding to the three
RITS submissions selected for testing. Request the SF-2817s covering the pay
periods in the RITS submissions chosen, either in electronic or hard copy format,
from the selected employees’ OPFs. Hard copies can be originals or certified
copies. Inspect the SF-2817 to determine that the employee waived or canceled
Basic Life Insurance coverage. Report any exceptions.


                                    11
Auditor Action for DoD and DOE. We randomly selected 10 employees from
each payroll data file who had no life insurance withholdings according to the
DCPS payroll files. We requested, obtained, and reviewed the SF-2817s covering
the pay periods in the RITS submissions chosen. We inspected the SF-2817s in
all instances when the coverage was waived and did not find any errors. DOE
auditors performed the same procedure and did not find any errors.

Procedure 5. Recalculate the headcount reflected on the Semiannual Headcount
Report selected for testing above, as follows:

Procedure 5.a. Obtain existing payroll information supporting the selected
Supplemental Semiannual Headcount Report selected for testing above, as
follows:

       •   Benefit category (see Semiannual Headcount Report),

       •   Dollar amount of withholdings and contributions,

       •   Number enrolled (deductions made/no deductions),

       •   Central personnel data file code, and

       •   Aggregate base salary.

Procedure 5.b. Recalculate the Headcount reflected on the Semiannual
Headcount Report. If an electronic file is not available, a suggested method of
recalculating the headcount is as follows: (1) estimate the number of employees
per payroll register page by counting the employees listed on several pages,
(2) count the number of pages in the payroll register, and (3) multiply the number
of employees per page by the number of pages, or count (using computer audit
routine) the number of employees on the payroll data file for the period.

Procedure 5.c. Compare the results of payroll information from step 5.a. with
the calculated headcount from step 5.b. to information shown on the Semiannual
Headcount Report.

Procedure 5.d. Report any differences (i.e., gross rather than net) greater than
two percent between the headcount reporting on the agency’s Semiannual
Headcount Report and payroll information from step 5.a. and the calculated
headcount from step 5.b.

Auditor Action for DoD and DOE. We obtained the DFAS Supplemental
Semiannual Headcount Report for the pay periods ended February 19, 2005, for
Payroll Office 1400 and 0800 and March 5, 2005, for Payroll Offices 0100, 0500,
and 0600. We compared those headcount reports to the payroll data files from
DFAS-Pensacola for the same period. The counts in the payroll data files differed
from the headcount reports by 564 employees, which are under the reporting
threshold of 2 percent, as shown in Table 2.




                                    12
              Table 2. Comparison of Employee Headcounts

                                 Headcount       Employee
  Payroll                        per Payroll     Headcount
  Data File     Report Date       Data Files       Report      Difference

  97380100         3/5/2005         162,715        162,715               0
  97380500         3/5/2005          88,546         88,546               0
  97380600         3/5/2005         145,370        145,372             (2)
  97380800        2/19/2005         227,114        226,548            566
  97381400        2/19/2005          10,869         10,869               0
  Totals                            634,614        634,050            564


Procedure 6. Calculate employer and employee contributions for retirement,
health benefits, and life insurance.

Procedure 6.a. Calculate retirement withholdings and contributions for the
three pay periods selected.

Procedure 6.a.i. Multiply the CSRS and FERS payroll base by the withholding
and employer contribution rates required by law.

Procedure 6.a.ii. Compare the calculated totals with related amounts shown on
the RITS submissions. Report any variances (i.e., gross rather than net) between
the calculated amounts and the amounts reported on the RITS submissions greater
than 5 percent of the amounts on the RITS submission.

Auditor Action for DoD and DOE. We calculated the total CSRS and FERS
retirement employee withholdings and employer contributions for the four pay
periods that we reviewed, and compared the recalculated totals with the amounts
shown on the RITS submissions. The differences between the calculated total of
CSRS and FERS employee retirement withholdings and employer contributions,
and the related amounts shown on the RITS submissions are within the 5-percent
reporting threshold, as shown in Table 3.




                                   13
  Table 3. Differences Between DFAS and RITS Information for CSRS
    and FERS Employee Withholding and Employer Contributions


              Employee                        Employee
             Withholding                     Contributions
              (absolute                        (absolute
                value)                           value)

           CSRS Percent      FERS Percent    CSRS Percent FERS Percent
            Difference        Difference      Difference   Difference
Pay Period    Range             Range           Range        Range

10/16/2004     0.29 - 0.77   <0.01 - 0.24       0.01 - 0.63     <0.01 - 0.08
1/22/2005      0.20 - 1.44   <0.01 - 0.12      <0.01 - 0.12      0.01 - 0.20
2/19/2005      0.20 - 0.35   <0.01 - <0.01     <0.01 - 0.12      4.67 - 4.87
3/5/2005       0.19 - 1.23   <0.01 - 4.26      <0.01 - 0.12      4.25 - 4.36
Overa1l        0.19 - 1.44   <0.01 - 4.26      <0.01 - 0.63     <0.01 - 4.87



 Procedure 6.b. Calculate employee withholdings and employer contributions for
 health benefits for the three pay periods selected.

 Auditor Action for DoD and DOE. We obtained the number of employees
 enrolled in each health insurance plan for each payroll data file from data
 provided by DFAS as RITS submissions. We obtained the official subscription
 rates for heath benefits issued by OPM for all plans and options available to
 Federal employees from the OPM website. We extended and added totals and
 compared the results with the health insurance withholdings and contribution
 amounts shown on the OPM Collection and Deposit System Standard Form 2812.
 None of the payroll offices had variances greater than the 5-percent reporting
 threshold for this comparison.

 Procedure 6.c. Calculate the basic life insurance employee withholdings and
 employer contributions for the three pay periods selected.

 Auditor Action for DoD and DOE. We totaled the amount of gross pay of
 employees in each payroll data file who were eligible for basic life insurance. We
 divided this sum by 80 and multiplied by 2,087 to determine annual gross
 earnings of employees electing basic life insurance coverage. We used data from
 DCPS to obtain a count of the number of employees electing basic life insurance
 for each payroll file. We multiplied 2,000 times the number of employees
 electing basic life and added the result to gross pay of employees who were
 eligible for basic life insurance. We multiplied the total times 15.0 cents per
 thousand to estimate basic life withholding, and compared the result with the
 withholding amounts shown on the OPM Collection and Deposit System Standard
 Form 2812. All payroll offices’ discrepancies were below the 5-percent reporting


                                     14
threshold for this comparison. To estimate agency contributions, we divided the
estimated basic life withholding by two and compared it to employer basic life
contributions on the OPM Collection and Deposit System Standard Form 2812.
All payroll offices’ discrepancies were below the 5-percent reporting threshold
for this comparison.

Procedure 6.d. Calculate the Option A, Option B, and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll
reports used to reconcile the RITS report in Step 1.

Auditor Action for DoD and DOE. We obtained the number of participating
employees from DFAS for each payroll file data file. We totaled the individual
withholding for Option A, Option B, and Option C for each payroll data file and
each date. All payroll offices’ discrepancies were below the 2-percent reporting
threshold for this comparison.




                                    15
Appendix A. Scope and Methodology
   We totaled the sampled payroll files that included about 697,000 DoD and DOE
   employees with a total gross payroll of about $6.5 billion for the seven DoD
   payroll offices plus the DOE payroll office for the four pay periods we reviewed.
   This total included all payroll offices regardless of the number of employees. The
   agreed-upon procedures require a review of the payroll offices that service 30,000
   or more employees. Three of the seven DoD payroll offices service less than
   30,000 employees and are part of the total but not part of the audit sample.

   We reviewed data and documentation supporting $2.4 billion in payroll for
   retirement, life insurance, health insurance, and Thrift Savings Plan withholdings
   reported each year by DFAS to OPM for DoD and DOE civilian personnel. The
   total DoD plus DOE payroll was for about 697,000 employees with an annual
   payout of about $42.4 billion.

   We performed the agreed-upon procedures required by OMB. Specifically, we
   reviewed data and documentation supporting gross pay and payroll withholdings
   that DFAS reported to OPM for the four pay periods ended October 16, 2004;
   January 22, 2005; February 19, 2005; and March 5, 2005. We also reviewed
   management controls over the reporting process. We compared the payroll data
   files with personnel forms for 225 randomly selected employees for gross pay,
   retirement, health insurance, and life insurance.

   We also verified payroll data file totals and calculations of insurance and
   retirement withholdings. We performed additional procedures based on generally
   accepted government auditing standards that we considered necessary in the
   circumstances.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DCPS that processes payroll data, although we did rely
   on data produced by that system to conduct the audit. We determined data
   reliability by totaling the data provided to us from the system and comparing the
   totals to summary documents previously prepared from the system. Not
   evaluating the controls did not affect the results of the application of the agreed-
   upon procedures.

   Work of Other Auditors. Auditors from the Office of Inspector General, DOE,
   performed the agreed-upon procedures that involved reviewing OPFs. We
   reviewed their working papers and determined that we can rely on their work.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.




                                        16
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We assessed DoD
    personnel offices’ management controls over accuracy of personnel elections for
    payroll withholding, transmission of payroll withholding data to DFAS, and
    retention of personnel payroll withholding election data in the official civilian
    personnel files. We also assessed the adequacy of management controls over
    reporting payroll summary data to OPM through the RITS system. We reviewed
    the annual statements of assurance by the Military Departments and Defense
    agencies to determine whether they disclosed the inconsistency between official
    personnel files and DCPS payroll withholding data.

    Adequacy of Management Controls. We identified a management control
    weakness for DoD personnel offices as defined by DoD Instruction 5010.40.
    Specifically, we identified weaknesses involving:

       •   DoD personnel offices’ management controls for accuracy of personnel
           payroll withholding elections,

       •   timely transmission of personnel payroll withholding data to DFAS, and

       •   retention of personnel payroll withholding elections in official personnel
           files.

    The inadequate controls did not ensure:

       •   proper payment and withholdings for civilian personnel,

       •   timely transmission of civilian personnel payroll withholding data, and

       •   retention of documents and data supporting payroll withholding in the
           official personnel files.

    We previously reported this management control weakness in DoD IG Report
    No. D-2002-070, issued March 25, 2002. Recommendations 1.a., 1.b., and 2. in
    that report have been implemented and should improve DoD personnel office
    payroll withholding procedures. We provided a copy of that report to the senior
    officials responsible for management controls of the personnel offices of the
    Military Departments and Defense agencies for their information and use.

    Adequacy of Management’s Self-Evaluation. Self-evaluation by the Military
    Departments and Defense agencies did not identify the weakness because
    management did not identify the area as an assessable unit.



                                        17
Appendix B. Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    and the Air Force Audit Agency (AFAA) have conducted multiple reviews
    related to civilian payroll information, controls over the payroll process, and
    payroll expenses. Unrestricted DOD OIG reports are on the Internet at
    www.dodig.osd.mil/audit/reports. Unrestricted Air Force Audit Agency reports
    are on the Intranet at www.afaa.hq.af.mil.


DoD IG
    DoD IG Report No. D-2005-036, “DoD Civilian Payroll Withholding Data for
    FY 2004,” February 17, 2005

    DoD IG Report No. D-2004-051, “DoD Payroll Withholding Data for FY 2003,”
    February 6, 2004

    DoD IG Report No. D-2003-060, “DoD Payroll Withholding Data for FY 2002,”
    March 18, 2003

    DoD IG Report No. D-2002-070, “DoD Payroll Withholding Data for FY 2000,”
    March 25, 2002

    DoD IG Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,”
    April 27, 2001

    DoD IG Report No. D-2000-156, “DoD Payroll Withholding Data for FY 1999,”
    June 29, 2000


Air Force Audit Agency
    AFAA Report No. F2004-0001-FB1000, “Civilian Premium Payment,”
    October 1, 2003

    AFAA Report No. 01053014, “Civilian Pay FY 2000,” July 23, 2001

    AFAA Report No. 99054002, “Selected Civilian Pay Entitlement,” March 1, 2000




                                       18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Security Service
Director, DoD Education Activity
Director, Washington Headquarters Service
Director, Defense Threat Reduction Agency
Director, Defense Technology Security Administration
Director, American Forces Information Service




                                          19
Non-Defense Federal Organizations
Office of Management and Budget
Office of Personnel Management
Department of Energy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Department of the Navy Comments




                    21
Department of the Air Force Comments




                     22
Defense Finance and Accounting Service
Comments




                      23
Defense Logistics Agency Comments




                     24
Defense Threat Reduction Agency Comments




                    25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J Granetto
Douglas P. Neville
Thomas J. Winter
Jonathan Rabben
Joseph Bilock
Demetria Trahan
Ariel Vega
